No. 20-38

 

IN THE

Supreme Court of the United States

STATE OF ARKANSAS,

Petitioner,
v.

CHARLES GRESHAM, et al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the District of Columbia Circuit

REPLY BRIEF FOR PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,894 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on November 4, 2020.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
